             expenses with the balance being used to procure the necessary materials within
             the community thus turning those dollars over to the local communities.”

        Maintenance of BIA Federal facilities (e.g., agency buildings, employee quarters, and
detention centers) has long been neglected due to underfunding. The maintenance backlog for
BIA Federal buildings is estimated to be billions of dollars. OFMC’s Operations & Maintenance
(O&M) budget is 50 percent funded now.

        In addition, throughout Indian Country, unemployment rates in and around reservations
range from 25 to 90 percent according to the OJT program description.2 OFMC used Recovery
Act funding to develop the OJT program in an effort to reduce the maintenance backlog on
Federal facilities and employ local American Indians.

        We interviewed OFMC management at the OFMC Central (West) office and staff at the
Navajo and Eastern regional offices. We also spoke with personnel from four OJT program
locations: Chinle Agency, Hopi Agency (Keams Canyon), Pine Ridge Agency, and Mississippi
Band of Choctaw Indians (Pearl River), as well as security and human resources staff at OFMC
Central (West) and in Anadarko, OK.

Lagging Obligations

        As of November 6, 2009, only 94 of 217 available OJT laborer positions have been filled.
According to the OJT Implementation Plan, 75 percent of program funds are designated for
labor. Labor, however, is not considered obligated until employee hours are worked. OFMC has
obligated approximately 14 percent of the program funds (labor and materials) to date.

        The O&M Stimulus Plan states that 50 percent of the program funds must be spent within
120 days of funding receipt. OFMC received funding on May 1, 2009; therefore 50 percent of
program funds should have been obligated by August 29, 2009. If this trend continues, OFMC
risks not meeting the September 30, 2010 obligation deadline.

Hiring Delays

       The Albuquerque Recruitment Center and its satellite office for the Navajo Region in
Gallup, NM, will process an estimated 75 percent of all OJT personnel actions. Several factors
have led to significant delays in OJT applicants receiving start dates and obligations of funds:

      1.	 The Individual Information System (IIS) is designed to automatically alert Human
          Resources staff by email when security office background checks are approved. We
          found that automatic emails were either not sent to Human Resources or were
          unrecognizable as such, and several prospective employees waited until October to
          receive start dates despite the completion of their background checks some months
          earlier.


2 FY2009 Economic Stimulus Plan, Office of Facilities Management, Division of Operations and Maintenance, Description of Deferred Maintenance Work, January 29, 2009.



                                                                                                                                                                        2
   2.	 Both the Director and Acting Director of the Albuquerque Recruitment Center retired
       during the height of the OJT hiring phase. A new director of the Albuquerque Security
       Office was hired in August of this year. These changes in personnel may have resulted in
       failure to follow up on the status of background checks and failure to recognize the
       mishandling of the automatic email notification system.

   3.	 When a worker leaves the OJT program, the hiring process begins again. Available
       positions must be advertised, candidates must be selected, and background checks must
       be completed. If this process starts too late in FY2010, candidates cannot be hired and
       wages cannot be paid prior to the Recovery Act obligation deadline.

   4.	 Many background investigation applications received by the Security Office were
       incomplete, which caused significant processing delays. Personnel from the Rocky
       Mountain Region visited job locations to assist applicants in filling out their security
       forms, but the Southwest and Navajo Regions did not.
Authority

        OJT personnel experience frequent communication lapses. Many offices have expressed
confusion regarding reporting requirements and frustration resulting from insufficient Recovery
Act training specific to facilities personnel. While OJT policies and procedures are developed by
O&M, it has no line authority over regional facility managers to implement these procedures.
The regional facility managers and the Chief of O&M report directly to the OFMC Deputy
Director. Without clear and consistent direction from the Deputy Director, regional facility
managers are not implementing OJT policies and procedures.

Recommendations

       We recommend the Director, Bureau of Indian Affairs:

       1.	 Implement strategies to accelerate hiring of OJT candidates. Approaches to consider
           could include, but are not limited to:

            	 Start new OJT workers after (1) favorable fingerprint checks are received from
               Office of Personnel Management, (2) complete security forms have passed review
               by the Security Office, and (3) contingent upon successful completion of
               remaining background check requirements;
             Issue “Open and Continuous until Filled” vacancy announcements for OJT
               positions to ensure rapid replacement of the workforce as needed;
             Transfer program funding to locations with proven programmatic success and
               high unemployment rates;
             Add temporary Human Resources personnel at Central Office (West) to
               proactively administer OJT hiring procedures;
             Address communication lapses between Human Resources and the Security
               Office to ensure swift application processing and timely start date determinations;
             Increase assistance to applicants to ensure applications are complete.

                                                                                                  3
        2.	 Clarify and strengthen O&M line authority regarding implementation of OJT policies
            and procedures.
cc: 	   Deputy Secretary, Department of the Interior
        Senior Advisor to the Secretary for Economic Recovery and Stimulus
        Assistant Secretary – Policy, Management, and Budget
        Director, Office of Acquisition and Property Management
        Director, Office of Financial Management
        Recovery Coordinator, Bureau of Indian Affairs
        Director, OEFCR
        Deputy Director, OFMC
        Chief, Division of Operations & Management, OFMC
        Departmental GAO/OIG Audit Liaison
        Audit Liaison, Office of the Secretary
        Audit Liaison, Bureau of Indian Affairs




                                                                                             4
          



                                                     


                      Report Fraud, Waste, and 
  
                         
                          Mismanagement

                                                       
                                 Fraud, waste, and mismanagement in
                             government concerns  everyone: Office of
                                 Inspector General staff, Departmental
                         employees, and the general public. We actively
                         solicit allegations
                                                of any inefficient and wasteful
                                  practices, fraud, and abuse related to
                              
                           Departmental       or Insular Area programs and
                          operations. You can report allegations to  us in
                                               several  ways.
                                                     
                                                         
                                                     
                                                     
                  By Mail:  	          U.S. Department of the Interior  
                                       Office of Inspector General  
                                       Mail Stop 4428 MIB  
                                       1849 C  Street, NW
                                       Washington, D.C. 20240  
                   
                  By Phone :           24‐Hour Toll Free	                800‐424‐5081   
                                       Washington Metro Area             703‐ 487‐5435   
                   
                            
                  By Fax:	             703‐487‐5402  
                   
                  By Internet:	        www. doioig.gov/hotline
               




                                                                                             
